   POSITION PAPER ON THE QUALITY REVIEW OF
               SIX SINGLE AUDITS




                 FOR OFFICIAL USE ONLY




This position paper was prepared by R. Navarro & Associates, Inc.,
under contract to the U.S. Department of Labor, Office of Inspector
General, and, by acceptance, it becomes a report of the Office of
Inspector General.




                          Acting Deputy Inspector General for Audit
                          U.S. Department of Labor




                                Report No.: 22-02-011-50-598
                                Date Issued: March 29, 2002




             R. NAVARRO & ASSOCIATES, INC.
                 Certified Public Accountants
                   POSITION PAPER ON THE QUALITY REVIEW OF
                               SIX SINGLE AUDITS

                                       Table of Contents


                                                                                 Page

Introduction and Background                                                        1
Objectives                                                                         1
Scope and Methodology                                                              1
Summary of Conclusions                                                             2
Internal Controls Testing
       Introduction                                                                3
       Summary of Single Audit Requirements for Internal Controls                  3
       Summary of Sampling Requirements for an Assessment of
               Internal Controls for a Low Level of Risk                           3
       Testing of Internal Controls                                                4
       Internal Controls Were Not Adequately Tested                                4
       Internal Control Testing Was Not Performed                                  6
       Conclusion on Assessment of Internal Controls                               6
Compliance Testing
       Introduction                                                                8
       Summary of Single Audit Requirements for Compliance Testing                 8
       Compliance Testing                                                          8
       Compliance Testing Did Not Gather Sufficient Evidence                       9
       Conclusion on Compliance Testing                                           12


Exhibit I - Summary of Requirements of OMB Circular A-133                         14
Exhibit II - Summary of Requirements of AICPA Statement of Position (SOP 98-3)    17
Exhibit III - Sampling                                                            20
                    POSITION PAPER ON THE QUALITY REVIEW OF
                                SIX SINGLE AUDITS


Introduction and Background

The Department of Labor ( DOL), Office of Inspector General (OIG), is evaluating single audits
performed in accordance with OMB Circular A-133 and the Single Audit Act Amendments of 1996.
The purpose of the evaluation is to determine if single audits provide sufficient evidence to support
the OIG’s opinion on the Department’s financial statements. As part of the evaluation, we performed
certain procedures for six single audits conducted for entities receiving DOL awards.

Objectives

The specific objectives of this evaluation were to determine whether: (1) the single audits performed
for six sites selected meet the requirements of OMB Circular A-133 and the Single Audit Act
Amendments of 1996, and (2) sufficient audit work is performed in single audits pertaining to various
DOL programs selected for major program testing in accordance with OMB Circular A-133.

Scope and Methodology

This project was performed following the procedures outlined in the Uniform Quality Control Review
Guide for A-133 Audits, 1999 Edition, issued by the President’s Council on Integrity and Efficiency.
These procedures were performed for six entities that were recipients of DOL funding and filed single
audit reports for fiscal years ending in 2000 or 1999. These entities included two states, two state
subrecipients, and two private nonprofit organizations. Under the guidance and assistance of DOL
OIG personnel, a site visit was scheduled with each of these entities and review teams were
established for each one of the entities selected. The teams consisted of R. Navarro & Associates,
Inc., and DOL OIG personnel.

OMB Circular A-133 has various requirements for conducting the single audit. We reviewed the
work performed by the auditors of the single audit to determine whether they performed adequate
audit procedures in accordance with the OMB Circular A-133 requirements. This position paper
primarily focuses on the following two requirements:

1.     Section 500(c) requires that the auditor plan and test internal controls over major programs
       to support a low assessed level of control risk for the assertions relevant to the compliance
       requirements for each major program.

2.     Section 500(d)(4) requires the auditor to test transactions and such other auditing procedures
       necessary to provide the auditor sufficient evidence to support an opinion on compliance.
       Section 6.36 of the AICPA’s Statement of Position No. 98-3 (SOP 98-3) requires that
       compliance testing include tests of transactions and such other auditing procedures as are
       necessary to provide the auditor with sufficient evidence to support an opinion on compliance
       for each major program.
Summary of Conclusions

Based on our review of the six sites, we believe that the single audit procedures performed at these
entities were not adequate. Over 60 percent of the applicable compliance requirements were either
not tested for internal controls, or were not adequately tested for the level of assurance required by
OMB Circular A-133. In addition, the auditors did not perform additional procedures to gather
sufficient evidence to support the opinion on compliance. In fact, when some of the auditors found
errors indicating a high risk system and a high probability of material noncompliance, the auditors did
not modify their audit approach. We found that small sample sizes were not increased (or additional
work was not performed) in cases where internal controls did not ensure a low level of risk. In some
cases, auditors gathered no audit evidence at all, and did not document why compliance testing was
not performed.

Tests performed by the single audit auditors identified material noncompliance (in one case a best
estimate of the noncompliance amounted to $64 million) yet the internal control finding (material
weakness) did not provide sufficient information to the auditee or the funding source to enable them
to know the extent of the problem. The sample identified a high percentage of errors which, in our
opinion, the auditor should have projected the attribute errors to the universe. This noncompliance
exceeded the auditors materiality by 500 percent, yet the auditor issued a qualified opinion. We
believe that the audit evidence gather in this instance did not support the compliance opinion issued
by the auditor.

Part of the objective of the reviews was to determine if the Department of Labor’s funds, if audited
properly under the Single Audit, received audit coverage. We believe that while DOL programs were
sufficiently selected for major program testing, the funds were not adequately audited due to the other
issues noted in this position paper.




                                                  2
Internal Controls Testing

Introduction

OMB Circular A-133 and the Statement of Position No. 98-3 requires the auditors of single audit
engagements to evaluate and test the recipient’s internal control policies and procedures over
compliance with Federal laws and regulations as they apply to major Federal assistance programs.

Summary of Single Audit Requirements for Internal Controls

OMB Circular A-133 and SOP 98-3 require the auditors to test the recipient’s internal controls for
a low level of control risk. A low level of risk allows the auditor to place a high reliance on the
system of internal controls and should be used by the auditor to determine the nature, timing and
extent of other compliance procedures necessary to gather sufficient evidence to support the auditor’s
opinion on compliance requirements.

The OMB Compliance Supplement, Part 6, is intended to assist non-Federal entities and their auditors
in complying with these requirements by describing for each type of compliance requirement the
objectives of internal control, and certain characteristics of internal control that, when present and
operating effectively, may ensure compliance with program requirements. The Compliance
Supplement lists examples of internal controls for 13 of the 14 compliance requirements. Because the
fourteenth compliance requirement (special tests and provisions) is unique to each program, it does
not have internal control characteristics listed.

Summary of Sampling Requirements for an Assessment of Internal Controls for a Low Level
of Risk.

As stated above, OMB Circular A-133 and the SOP 98-3 require the auditor to plan and test internal
controls over compliance for major programs to support a low assessed level of control risk. The
AICPA in the Audit and Accounting Guide Audit Sampling (page 32), states that if the auditor
wishes to place a high reliance on the internal controls, the auditor should use lower tolerable rates,
such as a tolerable rate of 2 percent to 7 percent. The Practitioner’s Guide to Audit Sampling, by
Dan M. Guy, Douglas R. Carmichael, and O. Ray Whittington, published in 1998, states that if the
auditor plans to assess control risk at a low level, and he or she desires a large degree of evidence
from the sample (i.e., no other tests will be performed), a tolerable rate of 5 percent or less might be
considered appropriate. The publication also shows that for a low level of control risk, the auditor
should still perform other tests of compliance. A low assessment of control risk does not relieve the
auditor from gathering additional evidence to support the opinion on compliance. Generally
Accepted Auditing Standards (AU 312.25) indicate that complete reliance should not be placed on
the assessment of inherent and control risk (i.e., tests of controls) to the exclusion of performing
substantive tests of account balances. The internal control phase is conducted in order for the
auditor, based on the control risk, to determine the nature and timing of other procedures to gather
additional evidence required to support the opinion.




                                                   3
The sample sizes using a 90 percent confidence level, a tolerable rate of 7 percent and expected error
rates between 0 and 3 percent would be in the range of 32 to 94 transactions. However, the majority
of the single audits reviewed had sample sizes of less than 32 transactions.

Testing of Internal Controls

In determining the sample size for internal control testing, the auditors for all six of the sites either
assumed that the universe contained no errors (which would result in a low sample size) or
judgmentally determined what the sample size would be (normally 25 or less sample items). The
majority of the audits did not properly document the sampling methodology. In addition, we noted
that all of the sites had applicable compliance requirements that were either not tested for internal
controls or were not adequately tested.

In reaching our conclusions, we considered the work performed by the single auditors for each
compliance criteria where the auditor would be required to test internal controls. There are 14
potential compliance criteria for each major program. We assessed the work performed for each of
the 14 criteria at each of the 6 sites, for a total of 84 criteria assessments. Of these 84 criteria, 28
were not applicable to the major program(s) reviewed. The remaining 56 compliance requirements
were subject to internal control testing. The results for these criteria are summarized as follows:

                                                                 Compliance
                                                                 Requirements Percentage

                Internal Controls were adequately tested                 19       34%
                Internal Controls were not adequately tested             24       43%
                Internal Control testing was not performed               13       23%
                Total                                                    56      100%

Internal Controls Were Not Adequately Tested

The above shows that for 24 compliance requirements, or 43 percent of the compliance requirements
applicable to the six sites visited, internal controls were not properly tested using a low assessed level
of control risk. Based on this information, the auditors cannot place high reliance on the system of
internal controls and would be required to gather more evidence to support their opinion on
compliance requirements for each major program. However, the majority of the auditors did not
perform any other procedures to support their opinion on compliance (to be discussed later). The
lack of adequate testing of internal controls was caused by the following:

1.      Inadequate Sample Sizes. The sample sizes were not adequate to test internal controls for
        a low assessed level of control risk. In determining the sample size for internal control
        testing, the auditors either assumed that the universe contained no errors (which resulted in
        very low sample sizes) or judgmentally determined the sample size. One site used moderate
        rather than low risk for establishing sample sizes.

        The AICPA in the Audit and Accounting Guide Audit Sampling recommends that, for an
        auditor to make an assessment of internal controls for a low level of control risk, they should

                                                    4
     use a tolerable rate between 2 percent to 7 percent. The minimum sample size at a 7 percent
     tolerable rate is 32 items (using a confidence level of 90 percent and assuming that the
     universe contains zero errors). However, if we believe that the universe contains a 2 percent
     error rate, the minimum sample size increases to 75 items. We noted that all of the audits had
     at least one internal control test using inadequate sample sizes (samples commonly ranged
     from 11 to 25 items). For example, we noted that the compliance requirements for
     Equipment and Real Property Management, and Procurement, Suspension and Debarment
     at two sites were tested with less than 10 transactions. At another site, program income was
     tested with less than 20 transactions.

     One auditor tested matching requirements at only one of numerous locations, and then
     concluded for the entire universe of transactions. This is referred to as block sampling, and
     according to the AICPA’s Audit Sampling, page 29, a sample with only a few blocks tested
     is generally not considered adequate to support a conclusion. In addition, the sample was
     small, only 25 transactions, and was not sufficient to support a low assessed level of control
     risk.

     At two sites, we noted samples where certain compliance attributes were not tested for many
     of the items selected. In such cases, the auditors should replace the items to ensure that the
     number of items actually tested is adequate. For example, one site had a large universe of
     placements into unsubsidized employment. The auditor selected a sample of 25 payroll
     transactions and added an attribute to verify placement into unsubsidized employment. The
     workpaper showed that for 23 of the 25 transactions, the attribute was “not applicable.”
     Therefore, the actual number of items tested for the placement attribute was two transactions.
     This is not sufficient to assess internal controls at any level.

2.   Tests Performed Not Sufficiently Documented. Four of the six auditors did not comply
     with workpaper requirements in that the sampling plan was not documented. The sampling
     plan whether statistical or non-statistical is required to be documented in accordance with
     both AICPA (AU 339.05) and Government Audit Standards (Section 4.46 and 4.37). We
     also noted in two audits that the workpapers did not contain sufficient information in support
     of the items selected for testing, such as the check number, the classification of the
     transactions, the payee, the amount of the payment or the fact that the goods were received.

3.   Test Results Not Sufficiently Evaluated. Four of the six auditors did not sufficiently
     evaluate the results of their testing, and none made adjustments to their audit approach based
     on the test results. One test identified an error rate of more than 20 percent, which indicated
     a high risk system, yet the auditor did not change the audit approach or extrapolate the errors
     to the universe.

4.   Tests Not Properly Designed. We noted that three of the audits excluded certain costs
     from the universe tested for allowability of costs. One auditor excluded administrative costs
     for rent, indirect costs, supplies, travel and other costs from the universe when performing
     dual purpose tests for this compliance requirement. This auditor also did not include 100
     percent of the costs of a major program in the universe tested. The auditee had several grants


                                               5
        with the same CFDA codes (17.246 and 17.250), yet only certain grants were included in the
        universe for major program testing.

5.      Incomplete Testing Procedures. Two sites had sufficient sample sizes; however, the
        attributes used for the testing were not complete. The OMB Compliance Supplement, Part
        6, is intended to assist non-Federal entities and their auditors in complying with the
        requirements of OMB Circular A-133 and SOP 98-3, by describing for each type of
        compliance requirement the objectives of internal control, and certain characteristics of
        internal control that when present and operating effectively may ensure compliance with
        program requirements. The procedures used by the auditors to test internal controls were not
        complete to make the proper assessment of operating effectiveness of the internal controls.
        For example, one of these auditors used a generic audit program that was not applicable to
        the major program tested. As a result, the auditor did not test all of the necessary areas of
        internal controls.

Internal Control Testing Was Not Performed

We found that in three of the six audits reviewed, one or more compliance criteria were not tested
for internal controls. There was a combined total of 56 compliance criteria that were applicable for
internal control testing. The auditors did not test internal controls for 13 of the 56 (23 percent)
applicable compliance requirements, nor did the auditors document why testing was not performed.
The following is the compliance testing that did not receive adequate coverage:

a.      Eligibility internal controls were not tested at three of the sites.
b.      Equipment and Real Property Management internal controls were not tested at two sites.
c.      Matching, level of effort, or earmarking internal controls were not tested at three sites.
d.      Period of Availability of Federal funds internal controls were not tested at three sites.
e.      Procurement, Suspension and Debarment’s internal controls were not tested at two sites.

In the majority of the cases, the auditors stated that the criteria were not applicable, even though the
Compliance Supplement stated that the criteria generally applied to the major programs. The auditor
did not document why the requirements were not applicable. We believe that the criteria were
applicable and required the auditor to document why no audit work was performed in these areas.

With respect to eligibility, our reviews of one state and two of its subrecipients lead us to conclude
that JTPA eligibility was not tested at any level within the state. The state believed that the auditors
of the subrecipients were testing eligibility, and the subrecipients believed that the state auditors were
testing eligibility. As a result of this confusion, no evidence was gathered for compliance with
eligibility requirements.

Conclusion on Assessment of Internal Controls

Based on our review of the six sites, we believe that the single audit procedures performed at these
entities were not adequate. Over 60 percent of the applicable compliance requirements were either
not tested for internal controls, or were not adequately tested for the level of assurance required by
OMB Circular A-133. With the small samples and the lack of testing of internal controls for some

                                                    6
of the compliance requirements, the auditors did not obtain reasonable assurance of detecting material
noncompliance nor should the auditors place a high reliance on the system of internal controls in
determining the nature, timing and extent of the other tests of details.




                                                  7
Compliance Testing

Introduction

OMB Circular A-133 and the AICPA’s Statement of Position No. 98-3 (SOP 98-3) require the
auditors of single audit engagements to determine the nature, timing and extent of compliance tests
for each major program based on the outcome of the evaluation and tests of the recipient’s internal
control policies and procedures over compliance with Federal laws and regulations.

Summary of Single Audit Requirements for Compliance Testing

OMB Circular A-133 and SOP 98-3 require that the auditors of single audit engagements render an
opinion on compliance with laws and regulations as they pertain to each major program.

SOP 98-3, Section 6.36, states that compliance testing includes tests of transactions and such other
auditing procedures as are necessary to provide the auditor with sufficient evidence to support an
opinion on compliance with each major program.

SOP 98-3, Section 6.37, states that in determining the nature, timing and extent of tests to perform,
the auditor’s professional judgment regarding the appropriate level of detection risk should be used.
In applying this judgment, the auditor should be aware that small sample sizes for tests of details with
a low dollar value and from a large population generally do not, by themselves, provide sufficient
evidence.

SOP 98-3, Section 6.39, states that the auditor should apply procedures to provide reasonable
assurance of detecting material noncompliance. Section 6.41 states that the auditor’s objective is to
accumulate sufficient evidence to limit audit risk to a level that is, in the auditor’s judgment,
appropriately low for the high level of assurance being provided.

Compliance Testing

In our internal control discussion, we concluded that for 66 percent of the applicable compliance
requirements, internal controls were either not tested or not tested for a low assessed level of control
risk. We also found that the auditors performed no other procedures for tests of details other than
the internal control tests, which we assume was intended to be a dual-purpose test of internal controls
and tests of details. For the majority of the criteria, we conclude that the auditors did not gather
sufficient evidence to support the opinion on compliance.

                                                                Applicable
                                                               Compliance
       Sufficiency of Audit Evidence                           Requirements            Percentage

       Compliance Testing gathered sufficient evidence                 20                  36%
       Compliance Testing did not gather sufficient evidence           36                  64%

       Total                                                           56                 100%

                                                   8
Compliance Testing Did Not Gather Sufficient Evidence

The data show that for 64 percent of the applicable compliance criteria, auditors did not gather
sufficient evidence to support the opinion on compliance. All six of the sites reviewed had applicable
compliance requirements for which sufficient audit evidence was not obtained. At one site, the
auditor did not gather sufficient evidence for any of the applicable requirements.

The reasons for not gathering sufficient evidence can be attributed to the following:

1.     Insufficient Sample Sizes. As stated in our discussion on internal controls, the sample sizes
       used by the auditors, for the most part, were too small. We also conclude that sample sizes
       used in these audits resulted in excessively high audit risk and were not sufficient to support
       the auditors’ opinions on compliance. SOP 98-3 states that the audit procedures should
       provide reasonable assurance of detecting material noncompliance. It also requires auditors
       to accumulate sufficient evidence in support of the opinion on compliance, thereby limiting
       audit risk to an appropriately low level. When auditors limit their audit evidence to small
       sample sizes, they limit the chance of detecting material noncompliance and increase audit
       risk.

       A statistical table developed by Dr. James Lackritz, Chairman of the IDS Department,
       College of Business Administration, San Diego State University, is presented in Exhibit III.
       This table shows the probability of finding at least one error with different sample sizes. If
       an auditor uses a sample of 25, the auditor has a 64 percent chance of detecting at least one
       error and a 26 percent chance of detecting at least two errors. With a sample of 60, the
       auditor has a 92 percent chance of detecting at least one error and a 70 percent chance of
       detecting at least two errors. A 64 percent chance of detecting one error equates to audit
       risk in excess of 30 percent, whereas audit risk is normally set at a range of 5 to 10 percent
       (SAS No. 39 illustrates audit risk at 5 percent). Audit risk of 30 percent does not provide
       reasonable assurance of detecting material noncompliance.

       One auditor selected a sample of 37 transactions (the universe of transactions was not
       documented) with a book value of 36 percent of the total funding (slightly over $2 million).
       The auditor used a method based on materiality and risk factor to calculate the sample size,
       but made an error in the calculation resulting in a very small sample size (37 items). The
       correct calculation provided a sample size of about 60 items. The statistical table referred to
       above shows that a sample size of 37 transactions provides a 76 to 80 percent chance of
       detecting at least one error. The audit risk associated with this small sample is slightly over
       20 percent, which is considered excessive. Using the correct sample size of 60 transactions,
       audit risk is 8 percent, which is within the parameters established in audit guidance.

       One auditor tested allowability of costs by testing 20 random transactions with a book value
       of 3 percent of the universe. The sample was not stratified and did not include significant
       items. The sample of 20 items resulted in only a 56 percent chance of detecting one error and
       only a 19 percent chance of detecting 2 errors. The audit risk for this test is 44 percent, and
       no other audit procedures were performed. We conclude that the audit work performed did
       not provide reasonable assurance of detecting material noncompliance.

                                                  9
     Another auditor tested cash management using a sample of 5 transactions out of a total of 100
     receipts of Federal funds. This is not a sufficient sample to support the opinion. For the
     matching requirement, the auditor tested 25 transactions that were selected from one site out
     of approximately 45 sites. Not only was the sample size of 25 not sufficient, but the sample
     was not random to the total number of sites. With a sample of 25, the auditor had a 64
     percent chance of finding one error and a 26 percent chance of finding two errors. The audit
     risk associated with this sample is 36 percent, which is quite high.

2.   Audit Samples Not Stratified. The audit samples utilized were not stratified nor did the
     auditors first test significant transactions followed by a sample of the remainder. Generally
     Accepted Auditing Standards (AU 326) state that the auditor should take into account
     significant items which will be audited 100 percent and the remaining population will be
     sampled. Also, these standards state that the auditor should identify any transactions or
     accounts that are individually important because of size, as well as those transactions or
     accounts that he or she believes have a high likelihood of misstatement. Only one site was
     found to have identified significant items for compliance testing, and we noted errors in some
     of the resulting calculations.

     For example, one auditor tested allowable costs using a sample of 40 random transactions and
     10 haphazardly selected transactions. The book value of the sample amounted to $77,000,
     or only .80 percent of the total book value of approximately $100 million. The reason for
     the low dollar coverage was due to the fact that the auditor did not identify or test
     individually significant items. While a sample of 50 items may have been sufficient to make
     an assessment for internal control purposes, the fact that the auditor tested only $77,000 in
     book value from a very large universe, indicates that the auditor did not gather sufficient
     evidence to support the opinion on allowability of costs. Small sample sizes for tests of
     details with a low dollar value and from a large population generally do not by themselves,
     provide sufficient audit evidence.

3.   Tests of Compliance Limited to Dual-Purpose Samples. In all six sites, the auditors did
     not perform additional test of details beyond those performed for internal control testing.
     Therefore, the tests performed were considered dual-purpose tests, since the auditor tested
     the same transactions for internal control and substantive purposes. All of the samples were
     unrestricted and comprised of mostly low dollar value transactions. SOP 98-3 states that in
     applying judgment, the auditor should be aware that small sample sizes for tests of details
     with a low dollar value and from a large population generally do not, by themselves, provide
     sufficient audit evidence. The sample sizes commonly ranged from 11 to 25 items.

     The Practitioner’s Guide to Audit Sampling indicates that if the auditor plans to assess
     control risk at a low level, and he or she desires a large degree of evidence from the sample
     (i.e., no other tests will be performed), the tolerable rate for the sample would be 5 percent
     or lower.




                                              10
     The sample sizes using a 4 percent and a 5 percent tolerable rate, with a 90 confidence level
     would be as follows (Audit Sampling, page 107):

                                                       Sample Size             Sample Size
                                                      4% Tolerable            5 % Tolerable
                Expected Rate of Errors                   Rate                    Rate

             Zero expected deviations (errors)                 57                 45
             1 percent expected deviations (errors)            96                 77
             1.5 percent expected deviations (errors)         132                105
             2 percent expected deviations (errors)           198                132

     These sample sizes are much higher than the actual samples used by the auditors.

     Eligibility, when tested was audited using a dual-purpose test. One site tested eligibility with
     a sample of 20 transactions. As stated previously, when the auditor desires a low level of
     control risk and performs no other tests of details, the sample should be determined using a
     tolerable rate around 5 percent. At this level, the minimum sample size would be 45 items.
     The auditor’s sample of 20 items only had a 56 percent chance of finding one error (instance
     of noncompliance) and a 19 percent chance of finding two errors. The audit risk associated
     with a sample of 20 is above 40 percent, which is extremely high. We believe that this dual-
     purpose test did not provide the auditor with sufficient audit evidence to support the opinion
     on compliance with eligibility requirements.

4.   Inadequate Scope of Work. In addition to the limited samples, we noted instances where
     the auditors simply did not perform any audit tests for required areas of compliance. One
     auditor did not gather sufficient evidence for any of the required compliance criteria. At this
     site the auditor sampled a total of 52 transactions, which were only tested for allowable costs
     and allowable activities. There was no evidence gathered by the auditor for any of the other
     applicable compliance requirements. The sample selected for allowable costs was not
     stratified and excluded certain items from the universe (administrative costs such as rent,
     office supplies, travel, indirect costs and other costs were excluded from the universe). Also,
     the workpapers supporting this test did not show sufficient descriptive information (required
     by Government Auditing Standards) such as the payment amount, the check number, the
     account charged and whether the goods or services had been received. This auditor did not
     gather any evidence for eligibility because he believed that the State would audit eligibility for
     the state as a whole. However, the auditee contracted with the intake agency and it was their
     responsibility to audit eligibility.

     Another auditor did not test three applicable compliance requirements, tested the period of
     availability requirement using the wrong period of time, and tested subrecipient monitoring
     by reviewing seven requests for payment (the universe was not documented).

     As mentioned in our discussion on internal controls, our reviews of one state and two of its
     subrecipients lead us to conclude that JTPA eligibility was not tested at any level within the
     state. The state believed that the auditors of the subrecipients were auditing eligibility and

                                                11
       the subrecipients believed that the state auditors were testing eligibility. As a result of this
       confusion, no evidence was gathered for eligibility requirements.

5.     Inappropriate Reliance on Internal Auditor. We found that one audit placed inappropriate
       reliance on the work performed by internal auditors. This site was required to place the
       enrollees into unsubsidized employment. The internal auditors selected 18 sites for testing
       this requirement. The single auditor visited two of these sites and reperformed every third
       item tested by the monitors, for a total of seven transactions. The single auditor did not have
       evidence in their workpapers as to the results of the work performed by the internal auditors
       at the 18 sites. We do not believe that the audit work performed was sufficient evidence to
       support the audit opinion. Generally Accepted Auditing Standards (AU 322.18 and 322.19)
       state that the work of internal auditors cannot alone reduce audit risk to an acceptable level
       to eliminate the necessity to perform tests of those assertions by the auditor. The auditor’s
       reperformance of seven transactions is not considered sufficient to reduce audit risk to an
       acceptable level.

6.     Audit Results Not Sufficiently Evaluated. As noted in the internal control discussion, we
       found that four of the six auditors did not sufficiently evaluate the results of their internal
       control testing, and none made adjustments to their audit approach based on the test results.
       We also found that the sample results were not sufficiently evaluated for substantive
       purposes.

       One auditor tested a total of 36 transactions with a book value of approximately $118,000
       (.10 percent) out of a total funding of $110 million. The auditor found questioned costs of
       approximately $3,000. The error rate noted by the auditor was 14 percent, which indicates
       a high risk system. However, the auditor did not adjust the test of details to gather additional
       evidence to support the opinion.

       The same auditor tested UI eligibility using a sample of 79 transactions, and identified 19
       benefit payments computed in error. While this indicates a high risk system, the auditor did
       not gather any additional evidence to quantify the potential errors in the universe or to
       support the compliance opinion. In prior years, the auditor had identified this system as high
       risk, yet the sample size was not adequate for a system with a high expected rate of errors.
       The errors extrapolated by the auditor exceeded the materiality level by approximately 500
       percent. The auditor properly questioned the costs associated with the 19 errors, which
       amounted to $3,001 and rendered a qualified opinion on compliance. We believe that the
       audit evidence gathered in this instance did not support the compliance opinion issued by the
       auditor.

Conclusion on Compliance Testing

Based on our review of the six sites, we believe that the tests of compliance performed at these
entities were not adequate. The auditors did not gather sufficient evidence to support the opinion on
compliance for 64 percent of the applicable compliance criteria. All six of the sites reviewed had
applicable compliance requirements for which sufficient audit evidence was not obtained. The
auditors limited their tests to small dual-purpose samples, and did not perform any additional audit

                                                 12
procedures even when the system was found to be high risk. The auditors stopped testing whether
they had a low risk or high risk system.




                                              13
                                                                                          EXHIBIT I


             SUMMARY OF REQUIREMENTS OF OMB CIRCULAR A-133
     AUDITS OF STATE, LOCAL GOVERNMENTS AND NON-PROFIT ORGANIZATIONS
                             ISSUED JUNE 24, 1997


The Single Audit Act Amendments of 1996 (Public Law 104-156) is the Federal statute that
establishes a legal requirement for governmental entities and nonprofit organizations expending
stipulated amounts of Federal awards to have an audit in compliance with specifications in the Act
and related regulations.

OMB Circular A-133 Audits of State, Local Governments and Non-Profit Organizations, provides
detailed guidance for implementing the Act’s broad provisions. The Act gave the OMB authority to
prescribe policies, procedures, and guidelines to implement the Act.

The following is a summary of selected significant requirements of OMB Circular A-133.

1.      Section 500(a) requires that the audit of the entity shall cover the entire operations of the
        auditee. This section of the Circular states that:

               The audit shall cover the entire operations of the auditee; or, at the
               option of the auditee, such audit shall include a series of audits that
               cover departments, agencies, and other organizational units, which
               expended or otherwise administered Federal awards during such fiscal
               year, provided that each such audit shall encompass the financial
               statements and schedule of Federal expenditures of Federal awards for
               each such department, agency, and other organizational unit, which
               shall be considered to be a non-Federal entity.

2.      The audit threshold includes all organizations that expend $300,000 or more in a year in
        Federal awards. Section 200(a) provides that governmental entities and nonprofit
        organizations that expend $300,000 or more in a year in Federal awards must either have a
        single or program-specific audit performed for the year in accordance with Circular A-133
        and the Single Audit Act Amendments of 1996. Section 200(d) provides that governmental
        entities and nonprofit organizations that expend less than $300,000 in a year in Federal
        awards are exempt from Federal requirements.

3.      Section 220 requires that audits be performed annually for the operations of the entity’s fiscal
        year. Biannual audits are allowed in limited circumstances; however, the biannual audits must
        cover both years within the biennial period.

4.      Section 105 requires that the audit focus on programs, not separate awards, when determining
        major programs or assessing whether a program-specific audit may be elected. Federal
        programs are defined as:

                                                  14
      a.     All Federal awards to a non-Federal entity assigned a single Catalog of Federal
             Domestic Assistance (CFDA) number.

      b.     When no CFDA number is assigned, all Federal awards from the same agency made
             for the same purpose should be combined and considered one program.

      c.     Awards defined as a cluster program. Cluster program means a grouping of closely
             related programs that share common compliance requirements.

5.    Sections 400(a) and (b) list the responsibilities of the cognizant and oversight agencies. A
      cognizant agency is assigned for recipients spending more than $25 million a year in Federal
      awards. For those agencies spending less than $25 million a year, the Federal awarding
      agency that provides the predominant amount of direct funding to a recipient becomes the
      entity’s oversight agency.

6.    Section 520 of the Circular prescribes a risk-based approach to determining which Federal
      programs are major programs. The risk-based approach shifts the audit away from traditional
      major programs with the largest dollar amount of funding to an emphasis on programs that
      show signs of managerial weakness or that by their nature are inherently risky.

7.    Section 520(h) lists a four-step process for determining major programs.

8.    Section 520(f) requires that the auditor shall audit as major programs Federal programs with
      Federal awards expended that, in the aggregate, encompass at least 50 percent of total
      Federal awards expended. If the entity has been determined to be a low-risk entity, as
      described in Section 530, the auditor need only audit as major programs Federal programs
      with Federal awards expended that, in the aggregate, encompasses at least 25 percent of total
      Federal awards.

9.    Section 500(c) requires that the auditor shall plan the testing of internal control over major
      programs to support a low assessed level of control risk for the assertions relevant to the
      compliance requirements for each major program. The auditor shall perform testing of
      internal control as planned in accordance with Section 500(c)(2)(i).

10.   Section 500(d) requires the auditor to determine whether the auditee has complied with laws,
      regulations, and the provisions of the contract or grant agreements that may have a direct and
      material affect on each of its major programs. The OMB Compliance Supplement identifies
      14 compliance requirements. The 14 compliance requirements which may apply, if they have
      a direct and material affect on a major program are:

      Activities Allowed
      Allowable Cost
      Cash Management
      Davis-Bacon Act
      Eligibility

                                               15
      Equipment and Real Property Management
      Matching, Level of Effort, Earmarking
      Period of Availability of Federal Funds
      Procurement and Suspension and Debarment
      Program Income
      Real Property Acquisition and Relocation Assistance
      Reporting
      Subrecipient Monitoring
      Special Tests and Provisions

11.   Section 520(d)(4) requires the auditor to test transactions and such other auditing procedures
      necessary to provide the auditor sufficient evidence to support an opinion on compliance.

12.   Section 505 covers audit reporting. The following are required:

      a.     Opinion on the financial statements based on an audit.
      b.     Reporting on internal control. The report shall disclose the scope of testing of
             internal controls and whether the tests performed provided sufficient evidence to
             support an opinion on internal controls.
      c.     Reporting on compliance with laws and regulations that may have a direct and
             material effect on the financial statements, disclosing fraud, illegal acts, and other
             material noncompliance.
      d.     Reporting on the supplementary schedule of expenditures of Federal awards. The
             schedule presents total Federal awards expended for each program.
      e.     Reporting on internal control over major programs.
      f.     An opinion as to whether the auditee complied with laws and regulations, and the
             provisions of contracts or grant agreements which have a direct and material affect
             on each major program.
      g.     Schedule of findings and questioned costs.




                                               16
                                                                                      EXHIBIT II


           SUMMARY OF REQUIREMENTS OF AICPA STATEMENT OF
        POSITION 98-3 (SOP 98-3) AUDITS OF STATE, LOCAL GOVERNMENTS
        AND NON-PROFIT ORGANIZATIONS RECEIVING FEDERAL AWARDS


SOP 98-3 provides guidance on the auditor’s responsibilities when conducting a single audit or
program-specific audit in accordance with the Single Audit Act Amendments of 1996 and OMB
Circular A-133. This AICPA requirement provides guidance on testing and reporting on compliance
with laws and regulations in engagements performed under Generally Accepted Auditing Standards
(GAAS), the Yellow Book, and OMB Circular A-133.

The SOP provides the auditors of governmental entities and not-for-profit organizations with a basic
understanding of the work they should do and the reports that they should issue under the Yellow
Book and OMB Circular A-133.

The SOP also provides guidance about financial and compliance auditing standards and requirements
related to single audits. Applicable standards and requirements are promulgated by the OMB, GAO
and AICPA. This SOP provides guidance on applicable auditing standards and requirements
established by those organizations to assist the auditors in planning, performing, and reporting on
single audits and program-specific audits in accordance with those standards and requirements, and
includes illustrative audit reports. Since Circular A-133 is the Federal policy guidance to which
auditors are held in performing single audits, this SOP primarily focuses on A-133 requirements.

The following is a summary of the pertinent requirements to performing single audits:

1.     Section 1.24 states that the scope of the auditor’s work in an audit in accordance with OMB
       Circular A-133 is determined by (a) the level of assessed risk associated with the Federal
       programs and whether they are identified as major programs and (b) the compliance
       requirements applicable to those programs.

2.     Section 1.25 states that the audit scope depends on whether the Federal awards expended are
       identified as relating to major programs. Circular A-133 places the responsibility for
       determining major programs on the auditor and provides criteria in applying a risk-based
       approach for making this determination.

3.     Section 1.26 states that the auditor will determine whether the auditee has complied with
       laws, regulations, and the provisions of contracts or grant agreements that may have a direct
       and material affect on each of its major programs.

4.     Section 1.27 states that the compliance requirements are outlined in the OMB Compliance
       Supplement. Section 1.28 states that the auditor should follow the guidance contained in the
       Compliance Supplement.


                                                17
5.    Chapter 2 of the SOP outlines the general audit requirements such as Audit Threshold,
      Applicable Standards and Covered Entity, Frequency of the Audits, Audit Objectives, Audit
      Reports, and Other Administrative Requirements. These items are covered in OMB Circular
      A-133.

6.    Section 6.10 requires the auditor to plan the testing of internal controls over compliance for
      major programs to support a low assessed level of control risk for the assertions relevant to
      the compliance requirements for each major program.

7.    Section 6.11 outlines the requirements of SAS No. 82, which provides guidance to the
      auditor on his or her responsibility to plan and perform the audit to obtain reasonable
      assurance about whether the financial statements are free of material misstatement due to
      fraud. Because SAS No. 82 only applies to audits of financial statements, its requirements
      do not apply to an audit of compliance with specified requirements applicable to major
      programs. However, as part of assessing audit risk in a single audit, the auditor should
      specifically assess the risk of material noncompliance with a major program’s compliance
      requirements occurring due to fraud.

8.    Section 6.14 states that in designing audit tests and developing an opinion on the auditee’s
      compliance with compliance requirements, the auditor should apply the concept of materiality
      to each major program taken as a whole, rather than to all major programs combined.

9.    Section 6.35 requires the auditor to obtain an understanding of relevant portions of internal
      controls over compliance sufficient to plan the audit and to assess control risk for compliance
      with specified requirements. The auditor is required to obtain an understanding of internal
      control and to perform testing of internal controls for a low assessed level of control risk for
      major programs.

10.   Section 6.36 requires that compliance testing include tests of transactions and such other
      auditing procedures as are necessary to provide the auditor with sufficient evidence to support
      an opinion on compliance for each major program. Such compliance testing may be
      performed concurrently with tests of internal controls, as substantive testing or as a
      combination of the two.

11.   Section 6.37 states that in determining the nature, timing and extent of tests to perform, the
      auditor’s professional judgment regarding the appropriate level of detection risk should be
      used. In applying this judgment, the auditor should be aware that small sample sizes for tests
      of details with a low dollar value and from a large population generally do not, by themselves,
      provide sufficient evidence.

      In determining the nature, timing, and extent of the testing of compliance, the auditor should
      consider audit risk and materiality related to each major program.

12.   Section 6.39 says that the auditor should apply procedures to provide reasonable assurance
      of detecting material noncompliance.


                                                18
13.   Section 6.41 states that the auditor’s objective is to accumulate sufficient evidence to limit
      audit risk to a level that is, in the auditor’s judgment, appropriately low for the high level of
      assurance being provided.

14.   Section 6.43 requires the auditor to consider the OMB Compliance Supplement for the
      objectives for each type of compliance requirement that the auditor should consider in
      planning and performing tests of compliance requirements.

15.   Section 6.44 states that the Compliance Supplement contains suggested audit procedures for
      testing Federal programs for compliance. The auditor is neither required to follow the
      procedures nor restricted to using only the procedures outlined in the Compliance
      Supplement. The auditor is to use professional judgement on the procedures the auditor will
      perform to obtain sufficient evidence to form an opinion on the compliance requirements that
      could have a direct and material affect on each major program.

16.   Section 6.45 allows the auditor to obtain evidential matter with either non-statistical or
      statistical sampling. SAS No. 39, Audit Sampling discusses both types of sampling. SAS
      No. 74, Compliance Auditing Considerations in Audits of Governmental Entities and
      Recipients of Government Financial Assistance, and Circular A-133 require the auditors
      to calculate both the known questioned costs and the likely (projected) questioned costs
      associated with audit findings.

17.   Section 6.47 states that auditors must obtain sufficient evidence to support an opinion on
      compliance for each major program. Separate samples for each major program are not
      required; however, experience has shown that it is preferable to select separate samples from
      each major program, because the separate samples provide clear evidence of the tests
      performed. If the auditor selects samples from the universe of major programs, the auditor
      is required to document whether the evidence gathered is sufficient to support an opinion on
      each major programs’s compliance.

18.   Section 6.59 requires the auditor to consider both the known questioned costs and the best
      estimate of the total costs questioned (likely questioned costs). When the likely questioned
      costs exceed $10,000, the auditor is required to report the known questioned costs.




                                                 19
                                                                                        EXHIBIT III


                                            SAMPLING


OMB Circular A-133 requires that internal controls be tested if the auditor’s understanding of internal
controls indicates that controls are likely to be effective (Sections 500(c)(2)(i) and 500(c)(3)) in the
prevention or detection of material non-compliance. The Circular requires the auditor to plan the test
work to support a low control risk assessment. SOP 98-3 provides several areas of guidance relating
to samples and sample sizes. The following are a few of the key requirements:

1.     SOP 98-3 (Section 3.42) states that if the auditee’s system administers more than one major
       program using common internal controls, the transactions of those programs could be
       combined into one population for selecting sample sizes. For efficiency purposes, testing only
       one common system is preferable to testing several different systems.

       The SOP continues that when testing transactions from major programs, the auditor could
       use the same sample to test internal control over financial reporting, internal control over
       compliance, and compliance requirements (Section 3.42). The SOP in essence encourages
       the use of a “dual-purpose” testing approach in which one sample can be used, when
       appropriate, for several different types of testing.

2.     SOP 98-3 does not set forth a required sample size for compliance testing. It does point out
       that the final decision on how much and what to test remains with the auditor. However, it
       does list certain items of guidance that should be considered by the auditor:

       a.      Section 6.6 requires the auditor to limit audit risk to an appropriate low level. Audit
               risk and materiality, among other matters, need to be considered together in
               determining the nature, timing, and extent of auditing procedures and in evaluating
               the results of those procedures.

       b.      Section 6.12 refers to Circular A-133 which states that compliance testing must
               include tests of transactions and such other auditing procedures necessary to provide
               the auditor with sufficient evidence to support an opinion on compliance. Such
               compliance testing serves to limit detection risk (the risk that the auditor’s procedures
               will lead him or her to conclude that noncompliance that could be material to a major
               program does not exist when, in fact, such noncompliance does exists (Section 6.7)).
               The auditor is, therefore, required to reduce detection risk to an acceptable level.

       c.      Sections 6.37-6.42 go on to say that selecting small sample sizes to test of details with
               low dollar value and from a large population generally do not by themselves provide
               sufficient evidence.

       d.      Sections 6.45 does not require the use of statistical or non-statistical sampling. The
               factors to be considered in planning, designing, and evaluating audit samples are

                                                  20
            discussed in SAS No. 39, Audit Sampling (AICPA Professional Standards Vol. I,
            AU Sec. 350). When planning to test a particular sample, the auditor should consider
            the specific audit objective to be achieved and should determine that the audit
            procedure, or combination of procedures, to be applied will achieve that objective.
            The size of a sample necessary to provide sufficient evidence depends on the objective
            and the efficiency of the sample.

     e.     Section 6.47 states that the auditor is not required to draw a separate sample for each
            major program. The SOP goes on to say the following:

                    Experience has shown, however, that it is preferable to select separate
                    samples from each major program because the separate sample
                    provides clear evidence of the tests performed, the results of those
                    tests, and the conclusions reached. If the auditor chooses to select
                    audit samples from the entire universe of major program transactions,
                    the working papers should be presented in such a fashion that they
                    clearly indicate that the results of such samples, together with other
                    evidence, are sufficient to support the opinion on each major
                    program’s compliance.

     f.     Section 6.47 also adds support for (c) above:

                    As noted in paragraph 6.37, the auditor should be aware that a sample
                    of a few items with a low dollar value and from a large population,
                    generally does not, by itself, provide sufficient evidence.

     g.     Section 8.24 states that when evaluating the results of tests of controls, if or when the
            auditor is not able to support a low assessed level of control risk for major programs,
            the auditor is not required to expand his or her testing of internal control over
            compliance. The auditor, however, should assess the control risk at other than low,
            design tests of compliance accordingly, and consider the need to report an audit
            finding.

3.   Definition of Sampling

     SAS No. 39 (AU 350.01) defines audit sampling as follows:

            The application of an audit procedure to less than 100 percent of the items
            within an account balance or class of transactions for the purpose of
            evaluating some characteristics of the balance or class.

     When an auditor uses audit sampling, the same basic requirements apply whether the
     approach to sampling is statistical or non-statistical. SAS No. 39 (AU 350.03) states:

            There are two general approaches to audit sampling: non-statistical and
            statistical. Both approaches require that the auditor use professional

                                               21
             judgement in planning, performing, and evaluating a sample. The guidance in
             this section applies equally to non-statistical and statistical sampling.

     According to Practitioner’s Guide to Audit Sampling, by Dan M. Guy, Douglas R.
     Carmichael, and O. Ray Whittington, published in 1998 by John Wiley & Sons, Inc.,
     whenever an auditor uses sampling (statistical or non-statistical), the following basic
     requirements apply:

     a.      Planning. When planning an audit sample, the auditor should consider the
             relationship of the sample to the relevant specific audit or internal control objective
             and consider certain other factors that influence sample size.

     b.      Selection. Sample items should be selected so that the sample can be expected to be
             representative of the population. All items in the population should have an
             opportunity to be selected.

     c.      Evaluation. The auditor should project the results of the sample to the items from
             which the sample was selected and consider the sampling risk. The auditor should
             also consider the qualitative aspects of the sample results.

     The rationale of SAS No. 39 for imposing these basic requirements on all audit samples is that
     there is an underlying logic for sampling that holds true whether the sampling approach is
     statistical or non-statistical. SAS No. 39 recognizes that from a conceptual perspective,
     statistical sampling and non-statistical sampling are very similar. In fact, SAS No. 39
     discusses sampling in general and makes few references to concepts or procedures unique to
     either type.

4.   OMB Circular A-133 Requires Internal Controls to be Assessed for a Low Level of
     Control Risk

     As stated previously, Section 500(c)(2)(i), requires that the auditor plan the testing of internal
     control over major programs to support a low assessed level of control risk and Section
     (c)(2)(ii) requires that testing of internal control should be performed as planned in (i).

     The AICPA in the Audit and Accounting Guide Audit Sampling, identifies the following
     tolerable rates based on the dependence that an auditor wishes to place on internal controls.
     Since OMB Circular A-133 requires an assessment for a low level of risk, this equates to
     placing substantial reliance on the internal controls. Page 32 of Audit Sampling shows the
     tolerable rates:

             Reliance on Internal Controls                            Tolerable Rate

             Substantial Reliance on internal control                  2% to 7%
             Moderate Reliance on internal control                     6% to 12%
             Little reliance on internal control                      11% to 20%
             No reliance                                              Omit test

                                                22
     For an auditor to make an assessment of internal controls for a low level of risk, the auditor
     should use tolerable rates between 2 percent and 7 percent. The Practitioner’s Guide to
     Audit Sampling, written by Dan M. Guy, Douglas R. Carmichael, and O. Ray Whittington,
     published in 1998 by John Wiley & Sons, Inc., on page 45, states the following:

            . . . If, for example, the auditor plans to assess control risk at a low level, and
            he or she desires a large degree of evidence from the sample (i.e., no other
            tests of controls for the assertion are planned), a tolerable rate of 5 percent or
            lower might be considered appropriate.

     Another way of stating the above, is that if the auditor plans to perform no other substantive
     procedures other than the sample, the auditor should use a tolerable rate closer to 2 percent
     than to the 7 percent. The sample sizes associated with the tolerable rates between 2 percent
     and 7 percent are as follows (assuming a 95 percent Confidence Level and a .75 percent
     expected deviation rate):

     Tolerable Rate                 2%       3%      4%      5%       6%      7%

     Sample Size                    **       208     117     93       78      66

     ** Sample size would be too large to be cost effective.

5.   SAS No. 41, Working Papers

     SAS No. 41 provides the guidance applicable, during the performance of the audits, on
     documentation of audit procedures (SAS No. 41, applicable during the period reviewed, has
     subsequently been superseded by SAS No. 96). Section AU 339.05 states the following:

            Working papers ordinarily should include documentation showing that–

            a.   The work has been adequately planned and supervised, indicating observance of
                 the first standard of field work.
            b.   A sufficient understanding of the internal control structure has been obtained to
                 plan the audit and to determine the nature, timing and extent of tests to be
                 performed.
            c.   The audit evidence obtained, the auditing procedures applied, and the testing
                 performed have provided sufficient competent evidential matter to afford a
                 reasonable basis for an opinion, indicating observance of the third standard of
                 field work.

     Government Auditing Standards impose additional requirements with respect to working
     papers, and specifically requires auditors to document significant judgements made during the
     audit, including sampling criteria applied in audit samples. It states the following,

            Section 4.36: . . . working papers serve an additional purpose in audits performed in
            accordance with GAGAS. Working papers allow for the review of audit quality by

                                               23
            providing the reviewer written documentation of the evidence supporting the
            auditors’ significant conclusions and judgments.

            Section 4.37: Working papers should contain
            a. the objectives, scope and methodology, including any sampling criteria used;
            b. documentation of the work performed to support significant conclusions and
                 judgments, including descriptions of transactions and records examined that
                 would enable an experienced auditor to examine the same transactions and
                 records, and
            c. evidence of supervisory reviews of the work performed.

     The AICPA’s Audit Sampling (page 40) provides a listing of what the auditor should
     consider in documentation audit samples:

     a.     A description of the prescribed control procedure being tested.
     b.     The objective of the application, including its relationship to planned substantive
            testing.
     c.     The definition of the population and the sampling unit, including how the auditor
            considered completeness of the population.
     d.     The definition of the deviation condition.
     e.     The rationale for the risk of over-reliance, the tolerable deviation rate, and the
            expected population deviation rate used in the application.
     f.     The method of sample size determination.
     g.     A description of how the sampling procedure was performed and a list of compliance
            deviations identified in the sample.
     h.     The evaluation of the sample and a summary of the overall conclusion.

6.   SAS No. 39 (Dual-Purpose Samples)

     SAS No. 39 (AU 350.44) discusses dual-purpose testing:

            In some circumstances the auditor may design a sample that will be used for
            dual purposes: assessing control risk and testing whether the recorded
            monetary amount of transactions is correct. . . . The size of a sample designed
            for dual purposes should be the larger of the samples that would otherwise
            have been designed for the two separate purposes. In evaluating such tests,
            deviations from pertinent procedures and monetary misstatements should be
            evaluated separately using the risk levels applicable for the respective
            purposes.

7.   SAS No. 39, Significant Items

     SAS 39 (AU 350.21) states the following:

            As discussed in section 326, the sufficiency of tests of details for a particular
            account balance or class of transaction is related to the individual importance

                                               24
            of the items examined as well as to the potential for material misstatement.
            When planning a sample for substantive test of details, the auditor uses
            judgement to determine which items, if any, in an account balance or class of
            transactions should be individually examined and which items, if any, should
            be subject to sampling. . . . For example, these may include items for which
            potential misstatement could individually equal or exceed the tolerable
            misstatement. Any item that the auditor has decided to examine 100 percent
            are not part of the items subject to sampling. Other items that in the auditor’s
            judgement, need to be tested to fulfill the audit objective but need not be
            examined 100 percent, would be subject to sampling.

     SOP 98-3, Section 6.37 states:

            In determining the nature, timing and extent of tests to perform, the auditor’s
            professional judgment regarding the appropriate level of detection risk should
            be used. In applying this judgement, the auditor should be aware that small
            sample sizes for tests of details with a low dollar value and from a large
            population generally do not, by themselves, provide sufficient evidence. In
            determining the nature, timing, and extent of the testing of compliance, the
            auditor should consider audit risk and materiality related to each major
            program.

     SOP 98-3 also states that small samples from large universes with small dollar value may not
     provide sufficient evidence. SAS 39 (AU 350.21) states that the auditor should first audit the
     significant items then apply sampling.

8.   Common System of Internal Controls

     A common system of internal controls has been defined as one in which one person may
     administer more than one major program. That person may approve expenditures or
     eligibility considerations, or prepare the various reports.

     If a common system is in place for major programs, then the auditor may select the sample
     from the total universe of major programs rather than a separate sample for each. This
     position is supported by SOP 98-3 paragraph 6.47 (Exhibit II, item 17).




                                              25
9.   Probability of Finding Errors Based on Sample Size

     The following information was derived from a statistical projection table designed by
     Dr. James Lackritz, Chairman of the IDS Department, College of Business Administration,
     San Diego State University.

     Universe                    2,500 transactions

     Materiality                  4%

     Estimated Errors             100

     Sample                        10    15     20     25     30      35     40     60

     Probability of finding
      one error                    34% 46%      56%    64%    71%     76%    80%    92%

     Probability of finding
      two errors                    6% 12%      19%    26%    34%     41%    48%    70%

     Audit Risk based on
       The sample                  66% 54%      44%    36%    29%     24%    19%      8%




                                           26
